<html>
<title> - THE EUROPEAN UNION'S EMISSIONS TRADING SCHEME: A VIOLATION OF INTERNATIONAL LAW</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]









                 THE EUROPEAN UNION'S EMISSIONS TRADING
                SCHEME: A VIOLATION OF INTERNATIONAL LAW

=======================================================================

                                (112-49)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

67-582 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
FRANK C. GUINTA, New Hampshire       EDDIE BERNICE JOHNSON, Texas
RANDY HULTGREN, Illinois             LEONARD L. BOSWELL, Iowa
CHIP CRAVAACK, Minnesota, Vice       TIM HOLDEN, Pennsylvania
    Chair                            MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ELEANOR HOLMES NORTON, District of 
STEVE SOUTHERLAND II, Florida            Columbia
JAMES LANKFORD, Oklahoma             NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida (Ex Officio)     (Ex Officio)
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee









                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                               Panel One

Kurland, Hon. Susan, Assistant Secretary for Aviation and 
  International Affairs, U.S. Department of Transportation, 
  accompanied by Hon. Julie Oettinger, Assistant Administrator 
  for Policy, International Affairs, and Environment, U.S. 
  Federal Aviation Administration................................    25
Urs, Hon. Krishna R., Deputy Assistant Secretary for 
  Transportation Affairs, U.S. Department of State...............    25

                               Panel Two

Moak, Captain Lee, President, Air Line Pilots Association, 
  International..................................................    34
Young, Hon. Nancy N., Vice President of Environmental Affairs, 
  Air Transport Association of America, Inc......................    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Kurland, Hon. Susan..............................................    39
Moak, Captain Lee................................................    43
Urs, Hon. Krishna R..............................................    51
Young, Hon. Nancy N..............................................    56

                       SUBMISSIONS FOR THE RECORD

Petri, Hon. Thomas E., a Representative in Congress from the 
  State of Wisconsin, request to submit the following into the 
  record:

    Rivasseau, Francois, Charge d'Affaires a.i., European Union, 
      statement..................................................     2
    Testimony from all other interested parties:

        Bates, Captain David J., President, Allied Pilots 
          Association, statement.................................     9
        Environmental Defense Fund:

            Cover letter from Jenny Cooper to Subcommittee on 
              Aviation, July 29, 2011............................    10
            Memo: ``Aviation and the European Union Emissions 
              Trading System''...................................    11
            Timeline: ``The Long Road Toward Reducing Greenhouse 
              Gas Emissions from Aviation''......................    17
            Letter to Representatives from 10 environmental and 
              development organizations..........................    18
        Kuwitzky, Captain Carl, President, Coalition of Airline 
          Pilots Associations, statement.........................    20
        Latin American Civil Aviation Commission (LACAC), 
          ``Declaration of Cartagena of the Indies''.............    23



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
                    THE EUROPEAN UNION'S EMISSIONS
                       TRADING SCHEME: A VIOLATION
                          OF INTERNATIONAL LAW

                              ----------                              


                        WEDNESDAY, JULY 27, 2011

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
2167, Rayburn House Office Building, Hon. Thomas Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The hearing will come to order. Today we will 
hear testimony on the European Union's Emissions Trading 
Scheme. This hearing is both timely as well as incredibly 
important, and I would ask unanimous consent that a statement 
from the European Union be submitted for the record.
    [The information follows:]





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Petri. Starting in January 2012, the European Union 
will begin to unilaterally apply its Emissions Trading Scheme 
to civil aviation operations landing in or departing from one 
of the EU member states. Under the Emissions Trading Scheme, EU 
member states will require international air carriers and 
operators to pay emission allowances and in some cases 
penalties. The Emissions Trading Scheme will apply to the 
entire length of the flight, including those parts of the 
flight outside of the EU.
    The EU is pressing ahead with its plans despite serious 
legal issues and objections by not just the United States, but 
by the international community. The United States presented its 
formal objections to the Emissions Trading Scheme in Oslo just 
last month. Airlines, manufacturers and general aviation 
operators around the world have also expressed strong objects 
to the Emissions Trading Scheme, and, in fact, several U.S. 
airlines and the Air Transport Association have filed a 
lawsuit.
    Unilateral enforcement of the Emissions Trading Scheme by 
EU member states on U.S. operators without the consent of the 
United States raises significant legal concerns under 
international law, including the Chicago Convention and the 
U.S.-EU Air Transport Agreement. There are also concerns that 
the Emissions Trading Scheme is nothing more than a revenue 
raiser for EU member states.
    Lack of transparency is a growing problem. The European 
Commission has provided no guidance on how the Emissions 
Trading Scheme funds should be used. Some EU member states 
intend to use the funds for whatever they want as opposed to 
investing in research and development efforts with the goal of 
reducing carbon dioxide production by the civil aviation 
sector.
    U.S. air carriers and their employees have also pointed out 
that the Emissions Trading Scheme actually harms efforts to 
reduce civil aviation CO2 production. If airlines are forced to 
pay these allowances, they will not have the capital to invest 
in efforts to develop alternative fuels, new fuel-efficient 
aircraft, or equipment needed to operate in a more efficient 
and environmentally friendly, satellite-based air traffic 
control system.
    Finally, there are considerable concerns about the 
proliferation of EU member states' eco charges being put in 
place on top of the Emissions Trading Scheme. Questions have 
arisen as to whether the eco charges are consistent with EU 
member states' obligations under international law, and whether 
some of these charges may, in effect, double charge for the 
same emissions the EU intends to regulate under its Emissions 
Trading Scheme.
    Given all these concerns, we believe that the EU needs to 
slow down, carefully weigh their plans to include international 
civil aviation in its scheme. We believe a better approach to 
the work within the international civil aviation community is 
to work with the international civil aviation community through 
the U.N. International Civil Aviation Organization.
    Since EU shows no interest in working with the 
international community to address their concerns and 
objections and to seek a global approach to civil aviation 
emissions, we believe that the United States should not 
participate in their unilateral and questionable Emissions 
Trading Scheme program. Therefore, last week, we introduced 
H.R. 2594, the European Union Emissions Trading Scheme 
Prohibition Act of 2011, with bipartisan support. We intend to 
move this legislation in the near future to make clear to the 
EU and the international community that the United States does 
not intend to participate in the unilaterally imposed process.
    And to thank the witnesses for their participation today, 
we look forward to your testimony. I know my colleagues will be 
joining us. There are caucuses going on as we started this 
hearing. And I also invite all other interested parties to 
submit written testimony for the record.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Petri. Finally, before I recognize Mr. Costello for his 
opening statement, I would ask unanimous consent that all 
Members have 5 legislative days to revise and extend their 
remarks and include extraneous material in the record in this 
hearing. Without objection, so ordered.
    And I now recognize Mr. Costello for his opening statement.
    Mr. Costello. Mr. Chairman, thank you. And as you pointed 
out, we have a conference going on your side of the aisle and a 
caucus going on on our side of the aisle concerning a little 
issue called the debt ceiling, but I think other Members will 
join us as the hearing gets under way.
    As you noted, climate change is a global problem that 
requires a global solution. Working through the International 
Civil Aviation Organization, the United States is committed to 
finding a global solution to address aviation emissions based 
on consensus. However, the EU has decided to move forward with 
a ``go it alone'' approach that is contrary to international 
law and violates U.S. sovereignty by charging U.S. airlines for 
all emissions for flights between the United States and Europe, 
even the portions of flights over our own airspace, and 
returning the revenue to European countries.
    Last week I was pleased to join Chairman Mica and Chairman 
Petri, Ranking Member Mr. Rahall, and several of our colleagues 
to introduce a strong bipartisan bill, H.R. 2594, that would 
prevent U.S. airlines from taking part in the EU emissions 
trading program. As Chairman Petri indicated, we intend to move 
that bill very quickly in a bipartisan manner. The legislation 
will send a strong message from Congress that we do not support 
what the EU is doing for a variety of reasons.
    In the meantime, the U.S. airline industry and the Federal 
Government are making progress to reduce aviation's carbon 
footprint with the implementation of NextGen, which will help 
aircraft operators save more than 1.4 billion gallons of fuel, 
cutting carbon emissions by more than 14 million tons by 2018.
    Again, I thank Chairman Petri for calling today's hearing, 
and I look forward to hearing the testimony of our witnesses.
    Mr. Petri. I now recognize for an opening statement the 
chairman of the full committee, John Mica from Florida.
    Mr. Mica. Well, thank you, Chairman Petri and Ranking 
Member Costello. And I don't see Mr. Rahall here, but all the 
Members that are here, I think, are united in moving on an 
expedited basis legislation that basically prohibits U.S. 
carriers from participating in what is appropriately named a 
scheme, the trading emission scheme that is crafted by the 
European Union. And we will take the legislation up, and it 
will be marked up as soon as we get confirmation of our 
schedule. But it will be at the first markup, that is my 
intention, and we will consult with--continued consultations on 
a bipartisan manner, and we will not only pass it out of 
committee, but we will take it to the floor as soon as 
possible, other minor things standing in our way right now like 
keeping the creditworthiness of the United States intact and 
little issues with FAA, but we will get beyond those, 
hopefully.
    Let see me say that we have done everything possible to 
have a positive and productive exchange with our European 
counterparts, both parliamentary members and the Commission and 
even some of the authors of this legislation. Unfortunately, 
even after meetings here in Washington, one that Mr. Holden was 
with us, we had a bipartisan delegation that met recently in 
Brussels, we did everything possible, I think, to try to work 
with them to find some solution. Quite frankly, we don't know 
the details of what they will impose because they aren't sure 
of it themselves. We have coordinated this effort with the 
Department of State, and I thank the administration, others, 
FAA and others for working with us in a cooperative effort to 
protect U.S. interests.
    But right now the clock is ticking. They plan to impose 
this arbitrary fee, or scheme, and you heard Mr. Costello speak 
to the revenues of this that they collect are just a cash grab 
by the European Union. It does not go into, we think, advancing 
getting even cleaner, more emissions-free technology, nor is 
the money directed towards protecting, preserving the 
environment after it is collected, not to mention the fact that 
this is probably contrary to international agreements and 
treaties that are in place.
    So we will move forward. We want to send this message loud 
and clear that the current road that the European Union is 
following is not one we are going to--we are not going to 
support, and we want a positive outcome in the best interests 
of not only the United States, but others who will be taxed or 
burdened by the European Emissions Trading Scheme.
    So with that, again, thank you. I look forward to the 
testimony, and we will work with all parties to resolve this 
matter.
    Mr. Petri. Thank you. The first panel consists of Susan 
Kurland, who is the Assistant Secretary for Aviation and 
International Affairs at the U.S. Department of Transportation, 
who is accompanied by Julie Oettinger, who is Assistant 
Administrator for Policy, International Affairs and Environment 
at the Federal Aviation Administration. And also testifying is 
the Honorable Krishna R. Urs, who is Deputy Assistant Secretary 
for Transportation Affairs at the United States Department of 
State.
    Welcome, both of you. Thank you for the efforts that went 
into your prepared statements, and we invite you to do your 
best to summarize them in 5 minutes or so, starting with Susan 
Kurland.

   TESTIMONY OF HON. SUSAN KURLAND, ASSISTANT SECRETARY FOR 
    AVIATION AND INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF 
TRANSPORTATION, ACCOMPANIED BY HON. JULIE OETTINGER, ASSISTANT 
     ADMINISTRATOR FOR POLICY, INTERNATIONAL AFFAIRS, AND 
  ENVIRONMENT, U.S. FEDERAL AVIATION ADMINISTRATION; AND HON. 
 KRISHNA R. URS, DEPUTY ASSISTANT SECRETARY FOR TRANSPORTATION 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Kurland. Good morning, Chairman Mica, Chairman Petri, 
Ranking Member Costello and members of the subcommittee. Thank 
you for inviting me and my colleague Julie Oettinger from the 
FAA to testify this morning on the European Union's Emissions 
Trading Scheme, or ETS.
    I want to begin by commending your leadership on this very 
important issue. Opposition to the unilateral imposition of ETS 
by the EU is shared across the United States political spectrum 
and around the globe. We strongly object on both legal and 
policy grounds to the unilateral imposition of ETS on U.S. 
operators. This is the wrong way to pursue the right objective.
    I want to make it very clear that the administration 
strongly supports reductions in greenhouse gas emissions, and 
it is also important to note that U.S. aviation greenhouse gas 
emissions have declined by 15 percent since 2000, even though 
passenger and cargo traffic have increased.
    Under the U.S. Next Generation Air Transportation System 
Plan, known as NextGen, we will continue to build on this 
record by using a combination of innovative air traffic 
management, more fuel-efficient aircraft, and alternative fuels 
in order to meet aviation's energy and environmental 
challenges. And we are working to improve aviation emissions 
performance by 2 percent a year and to achieve carbon-neutral 
aviation growth by 2020. We are also working with our 
international partners at ICAO in order to develop a meaningful 
CO2 standard.
    Unfortunately, the unilateral imposition of the EU ETS on 
the world community is undermining efforts to build 
international consensus on reducing aviation's greenhouse gas 
emissions.
    In addition, our specific concerns with the EU ETS include, 
first, the application of the EU ETS to U.S. operators is 
inconsistent with international aviation law and practice.
    Second, since the EU has no transparent methodology or 
standard for exempting countries from ETS, discrimination and 
competitive distortions in the industry can result.
    Third, any money that U.S. airlines pay to European 
treasuries is not available to invest in new aircraft or 
equipage that is required under NextGen.
    Despite public statements pledging ETS revenues to climate 
mitigation funding, the EU ETS directive imposes no such 
requirement, nor are we aware of any commitments by any EU 
member state to dedicate ETS revenue for climate change 
purposes.
    We have discussed these and other concerns with our 
European counterparts at the Joint Committee of the U.S.-EU Air 
Transport Agreement last month in Oslo, Norway. Unfortunately, 
the EU's ambiguous responses to our questions have only 
heightened our concerns.
    We applaud this committee's bipartisan focus on the ETS 
issue, and we hope that it will encourage our European 
colleagues to work for a collaborative global solution.
    With that, we look forward to responding to your questions. 
Thank you very much.
    Mr. Petri. Thank you.
    Mr. Urs.
    Mr. Urs. Mr. Chairman, Ranking Member Costello and members 
of the subcommittee, thank you very much for inviting me to 
testify this morning. I will keep my remarks brief. I have 
submitted a more detailed statement for the record.
    I will focus on our diplomatic efforts to prevent the 
unilateral inclusion of U.S. air operators in the European 
Union Emissions Trading Scheme. The Department of State has 
worked closely with the Department of Transportation, the 
Federal Aviation Administration, the Environmental Protection 
Agency and the Department of Commerce to advance this goal.
    First, let me state upfront that we support the goal of 
addressing greenhouse gas emissions, including from the 
aviation sector. However, unilaterally including our carriers 
in an emissions trading scheme is the wrong way to achieve the 
right objective. We believe the right way is to work with our 
international partners to develop a multilateral solution 
through the international aviation organization--International 
Civil Aviation Organization, excuse me.
    We have made progress in developing a solution at the 
global level through ICAO, and we are eager to continue this 
progress. At the last ICAO Assembly in 2010, the United States 
worked with our international partners to achieve an agreement 
on a number of measures to limit or reduce aviation's impact on 
the environment. They included for the first time ever an 
ambitious medium-term global goal of carbon-neutral growth from 
2020, agreement to develop a CO2 standard, mandatory reporting 
by all countries of fuel consumption, an agreement that States 
would submit to ICAO action plans listing the measures they 
plan to take to contribute to the global goal.
    Further, at the Assembly, a majority of ICAO member states 
acknowledged that the application of market-based measures to 
international aviation should be done following good-faith 
negotiations to reach an agreed way forward and not 
unilaterally.
    In the United States we have a strong record of success in 
reducing emissions from aviation. Over the past decade we have 
seen U.S. aviation emissions shrink by 15 percent through 
greater efficiencies and improved technology. Europe, as our 
largest aviation market, is one of our closest partners. In 
2007, the United States signed an air transport agreement with 
the European Union and its member states. We signed a protocol 
to amend the agreement in 2010. That was the so-called second-
stage agreement. This agreement led to great benefits on both 
sides of the Atlantic.
    Recognizing that the environment is taking on more 
significance in international aviation, Article 15 of the 
agreement, as amended, underscores the parties' intent to work 
together to reduce the impact of aviation on the environment, 
and the commitment of both parties to address questions raised 
concerning new environmental measures that might affect the 
exercise of rights.
    On June 22, in Oslo, Norway, we met with EU officials and 
delivered this administration's formal objection to the EU's 
unilateral inclusion of U.S. air carriers in the ETS. I led the 
delegation to the meeting, which included representatives of 
FAA, DOT, EPA, Commerce, the U.S. aviation industry and U.S. 
environmental organizations.
    We objected to the unilateral imposition of the EU ETS on 
U.S. air carriers on both legal and policy grounds. We 
emphasized that unilateral imposition was the wrong way to 
pursue the right objective. We asked a number of questions 
about how the Emissions Trading Scheme is expected to work and, 
frankly, were disappointed with the answers. In fact, our 
concerns about the lack of transparency surrounding the EU's 
plans to determine equivalency of other countries' measures and 
the potential for discrimination in that process were only 
heightened.
    While this is the first time this administration has 
rendered a formal objection, the United States and other 
members of the international community have been expressing our 
concern about the prospect of the European Union unilaterally 
extending its ETS to international aviation for years. It is 
therefore disappointing to hear statements from European 
officials that our objections have been raised too late, and 
that because application of the EU ETS to all air carriers is a 
matter of law and not policy, the European Commission is not in 
a position to delay or modify its implementation or 
application.
    We will continue to strongly oppose the unilateral 
application of the EU's ETS to our airlines and will work with 
the international community to find a constructive and 
collaborative way to tackle the important issue of aviation and 
climate change.
    Thank you for your attention. I would be happy to take any 
questions you may have.
    Mr. Petri. Thank you, and we appreciate your summarizing 
your full remarks as you have.
    Some of us have had reservations about the whole EU 
approach. As I indicated in my opening statement, to the extent 
that they extract funds through this scheme from the 
international aviation community and use it for nonaviation-
related purposes, there are going to be less funds for the 
airlines to reequip themselves, buy the latest generation of 
engines and planes which are significantly more efficient, and 
it will, in fact, retard the goal of all of this, which leads 
me to ask you if you think there might be some merit in trying 
to use a more of a carrot approach than a stick approach, 
because airlines are very eager to save money on fuel and 
reduce carbon emissions. They don't have to be ordered by 
governments to do it. It is in their economic interest to do 
it. So to the extent we can figure out ways to help them within 
their means more quickly reequip themselves and become more 
efficient, we can reduce carbon emissions, and achieve their 
goals, and help the traveling public.
    And the United States has been the leader in investing in 
all these efforts both in new engine technology--the Boeing 
Dreamliner is much more efficient than others, and this is 
spreading through the whole next generation of airlines. 
Further, our Government is very aggressively working now to 
reequip the air traffic control system, which shows the 
potential of reducing carbon emissions by 25 percent or more 
throughout the system.
    So I don't think we need to apologize in any way for 
failing to address the goal of all of this, but I think we do 
need to very aggressively work with other countries in the 
world to try to come up with a more sensible approach than that 
that the Europeans are attempting to unilaterally apply. It 
doesn't seem to have worked very well so far, it does not seem 
to be very well thought through, and it is really rather 
counterproductive and arbitrary.
    Would you care to comment on that at all, especially Mr. 
Urs, because you had to deal with this?
    Mr. Urs. Sure. Perhaps I can say a few words, and if 
Assistant Secretary Kurland or Assistant Administrator 
Oettinger would like to add some additional comments.
    We had a very good record in terms of addressing emissions 
from our aviation sector, and we made that very clear to the 
European Union, the European Commission. When we met with them 
in Oslo, we pointed out, as Assistant Secretary Kurland had 
pointed out, there has been a 15-percent reduction in aviation 
emissions in the United States in the last decade, and that is 
at a time when we have seen an increase in traffic, and we have 
had a decrease in emissions. The same is not true for the 
European Union. They have seen an increase in their emissions 
at a time during that same time period.
    And we did, in fact, also discuss our commitment in the 
sense of a number of activities that we have going forward, 
biofuels--perhaps Julie is better situated to comment on that--
but regarding biofuels, and new technologies, and NextGen, and 
a whole series of things that we are doing that are oriented at 
reducing our emissions footprint.
    So, absolutely, we are committed to the goal. And I don't 
think we have anything to apologize for in terms of being 
committed to the goal. And we did very much lay out very 
clearly to the European Union our objections on legal and 
policy grounds, and specifically we have, in other venues, 
accepted the concept of market-based measures to deal with 
emissions. But very clearly we have stated that those market-
based measures, before they are applied on any other country's 
carriers, they need to be the result of constructive 
negotiation and mutual agreement. And we don't have that stage 
here in terms of the European Union's negotiations with us.
    So let me just leave it there and perhaps----
    Ms. Kurland. Thank you, Mr. Chairman.
    The U.S. Government, and particularly the FAA, has been 
very, very active in this arena, and I would like to ask 
Associate Administrator Oettinger to comment on that.
    Ms. Oettinger. Thank you. Thank you, Mr. Chairman for your 
question and your comments. I appreciate the opportunity to 
talk about what the FAA is doing in this area.
    As has been noted, the FAA is very committed, as is the 
U.S. Government generally, to addressing the impacts of 
aviation on the environment generally, and in terms of 
emissions--of greenhouse gas emissions in particular. We have a 
very robust program domestically focused on air traffic 
management, operations and procedures improvement; focused on 
development and deployment of alternative fuels; focused on 
accelerating technology for aircraft and engine technology to 
improve efficiency of the industry. We have put these goals and 
these efforts at the heart of our NextGen program to modernize 
the aviation system.
    We are working in these areas, as you have alluded to, Mr. 
Chairman. We are working very closely with the industry in a 
number of these areas. They are also very committed to making 
improvements. And as you noted, it is very much in the 
airlines' economic interest where fuel is now the single 
largest expense of the airlines, and so they have every 
economic interest to reduce their fuel burn and are very 
committed to working with us in terms of the initiatives that I 
have mentioned.
    Also, we are working very closely, we are very committed to 
working internationally to forge consensus on positive steps 
that we can take through ICAO. We have been working with other 
countries very closely. We have been supported by our industry 
in this regard as well. So I think I agree with the statements 
that have be made already that this is a strong commitment of 
the U.S. Government to take positive steps with the industry 
support, and we don't have anything to apologize for.
    Mr. Petri. Thank you.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    The date isn't too far off here for the application of 
these fees, so I am wondering--I know litigation has been 
filed, but I am wondering what other steps the administration 
is considering.
    For instance, I am pretty much an expert on how their cap-
and-trade scheme works. I voted against it here in the House 
because I know how the system is gamed. We could set up some 
fake credits over here just like are being used there.
    For instance, in China they produce refrigerants. When you 
produce a refrigerant, you produce a horrible off-gas. The 
horrible off-gas under U.S. law is destroyed. Under European 
law it is destroyed. In China they save it, they transport it 
to another Chinese company. The other Chinese company offers to 
bid to European companies to destroy this off-gas, and then 
they get paid to destroy the off-gas, and then they sell the 
credits. Then the Europeans sell those credits, and they sell 
them to polluters in Europe. So we could just say, OK, in the 
U.S. we will now take that off-gas, we will destroy it, we will 
put it in the European market, and we will have fake credits, 
and so we have taken care of the problem. That is one thing we 
could do because this whole thing is just nuts.
    Secondly, have we thought of going to the WTO, because they 
actually have rules. The U.S. lost cases to Mexico and others 
because when you have an environmental concern, you must take 
the least expensive, least intrusive approach. We lost a case 
to Mexico on their catch of dolphins when fishing for tuna, and 
we have to pay the Mexicans to not do that. So we can't have 
our environmental laws under the WTO.
    I believe they are in violation of the WTO. Have we 
contemplated they have not taken the least intrusive, least 
expensive means here? Are we contemplating a WTO complaint?
    Ms. Kurland. Thank you, Congressman.
    At this point, as you have heard, we are taking this matter 
very, very seriously, and we are considering a wide range of 
options, and we are working with our interagency colleagues 
within the Government. At this point we would prefer not to 
discuss in open discussion what we are thinking about in terms 
of not wanting to telegraph any strategies to the EU.
    Mr. DeFazio. Yeah, but WTO complaints take quite a while to 
process. I suggest if you are contemplating that strategy, you 
need to file soon, since 2012 isn't very far away. There is 
nothing to contemplate. File it. They are clearly in violation 
of the WTO. If we are meeting the standards, they are going to 
obviously try and mess with us on equivalence. They will 
determine they are doing equivalence, but we are not. We did 
this with noise before where the Europeans were trying to 
advantage their airlines, you know, we could quite simply then 
get credit for our equivalent measures, because that would be 
the least intrusive, least expensive way of meeting this if we 
want a WTO complaint.
    So that should be filed as quickly as possible because 
otherwise you are going to drag this out, wait for the court 
decision in a European court when the Europeans are going to 
make a pile of money with this, some of which they might use 
for greenhouse gas reduction, and some of which they will use 
to run their governments. That is not acceptable.
    And then the third thing would be some sort of reciprocal 
trumped-up charge on the European airlines coming here since 
this is just outrageous. We had a representative of the EU here 
a few years ago, and they told us then this is what they were 
going to do, and a number of us objected strenuously. Obviously 
they went ahead, and we are a little bit behind the eight ball 
here in terms of fighting back aggressively against a 
nonsensical rule that does nothing for climate change.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you. And I would like to associate myself 
with the bulk of your remarks, particularly so far as starting 
an action with the World Trade Organization, if, as you have 
said, that framework would exist, and that has the potential of 
bringing some real pressure down the road at least.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. I, too, would like 
to echo and associate myself with the remarks of Mr. DeFazio.
    I think there is not a lot to contemplate here, and with 
the timing that the WTO takes, I don't understand why we would 
not be initiating every action possible. And since the 
emissions trading proposal is a violation of U.S. law and our 
international agreements, you have talked about some of the 
remedies of, but can we impose tariffs or other measures? Is 
this part of what you are looking at here? You don't want to 
talk about the specifics you are looking at, but I think we 
maybe need something to go on.
    Ms. Kurland. Thank you, Congressman. As I mentioned, we are 
taking this very seriously. We are in constant contact with our 
interagency colleagues, and we are considering a wide range of 
options that are available to us.
    The Department of Transportation does have regulatory 
authority to impose--under statute and under law, to impose 
countervailing proportionate countermeasures at the appropriate 
time. And as we move forward, and as we consider the options 
that we want to move forward with, we will work very closely 
with the committee, and we will keep you informed. And we thank 
you very much for your suggestions.
    Mr. LoBiondo. And it also seems that they have been very 
reluctant and resistant to even being at the table, to even 
negotiating on this. So I am hopeful that in this list that you 
are looking at, I don't know what else to call it, that there 
are some ideas that can come to mind from either the Department 
of Transportation or even the State Department of how to get 
these people to the table. You have got to get them to the 
table to understand if they think that we are not taking it 
seriously, if they think that, well, we are raising some verbal 
opposition, and they can let this thing go, that they are going 
to take advantage of it. So I think now is the time, as Mr. 
DeFazio said, to make sure that they have no ambiguity about 
how strongly we feel.
    Thank you, Mr. Chairman. I yield back.
    Mr. Petri. Thank you.
    Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman. And I would agree 
with my friend from New Jersey.
    Let me ask you, Ms. Kurland, I know that formal 
negotiations took place in June. Do you have additional formal 
meetings scheduled now or in the future?
    Ms. Kurland. At this point, as I mentioned, we are 
considering the range of options. We do not have a formal 
meeting scheduled. But maybe I would ask Deputy Assistant 
Secretary Urs to comment a little bit further on that.
    Mr. Urs. We do not have a specific meeting scheduled to 
continue discussion of EU ETS with the European Union at this 
time. We do have a regular set of meetings with the European 
Union that are provided for under our air services, our air 
transport agreement. And so should we wish to raise the issue 
with the European Union again at any point, we would be in a 
position to do so.
    But as I say, as Susan has mentioned on several occasions 
here, we are looking at a wide variety of options that we have 
available to us. Certainly continuing our conversations with 
the European Union could be a part of that set of possible 
options that are available to us, but we are considering them 
at this point.
    Mr. Costello. Well, we know that the airlines have filed a 
lawsuit, and they are before the European Court of Justice. Do 
you have any idea what the timeline is there for a ruling, or 
at least for the airlines to make their case?
    Ms. Kurland. What has happened thus far is that the--as you 
know, the airlines case before the ECJ, there was a hearing, I 
believe it was on July the 5th, and we have been informed that 
the Court's Advocate General will likely be making or 
submitting a proposed findings to the Court's Justices in the 
beginning part of October. We are continuing to monitor the 
matter very, very closely. I don't know if my colleagues want 
to add anything to that.
    Mr. Costello. You mention a range or a whole host of 
options. We know that you can go to ICAO and file a complaint 
there. We know that you can file a complaint with the WTO. What 
other options exist?
    Ms. Oettinger. One other option, Mr. Congressman, that 
exists is there is a dispute resolution process associated with 
the U.S.-EU Open Skies Agreement, and I think, as Assistant 
Secretary Kurland said, there are a wide variety of legal 
avenues that are open to us. We had hoped to resolve the issue 
through diplomatic efforts and through international efforts. 
We are, at this point, looking very closely at what legal 
options we have, as well as the legal evidence to pursue, as 
well as potential retaliatory options, and we are considering 
that closely right now.
    Mr. Costello. Well, I, as my friend from New Jersey just 
said, Mr. LoBiondo, I think our friends in Europe need to 
understand that we are serious about this, and I would 
encourage you to go back and start exercising the options that 
are available to us sooner rather than later so that they do 
not run the clock out on us.
    So I would just encourage you to do that, to look at 
complaint with ICAO, to look at the WTO, going the WTO route as 
Mr. DeFazio suggested, but they need to understand that we are 
serious. The purpose of the legislation that we introduced is 
to put our friends in Europe on notice that the Congress of the 
United States--I have every confidence that the legislation 
will pass this committee in a bipartisan vote, and pass the 
House of Representatives, and hopefully the Senate as well, and 
that should send a strong signal where the Congress is. But the 
agency, the Department needs to exercise its options sooner 
rather than later.
    With that, Mr. Chairman, I yield back.
    Mr. Petri. Thank you.
    I underline that we are not--we are affected potentially, 
but we are not the only country that is affecting many other--
this approach by the EU is potentially going to affect many 
other countries, from China to the Middle East and Latin 
America, and we can hopefully coordinate our outrage with some 
of theirs as well.
    Mr. Hultgren.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you for being 
here.
    Following up on really what the chairman just said, I 
wondered if you could just talk briefly about what has the 
reaction been to the EU trading scheme from other countries 
around the world?
    Ms. Kurland. Thank you. Thank you, Congressman.
    We have heard from many other countries of the world. There 
has been basically uniform opposition from other countries 
within the world. I don't know if Chris would want to comment 
more from the State Department's perspective.
    Mr. Urs. Only to say that, Mr. Congressman--only to say 
that the response has been overwhelmingly negative from other 
countries around the world, and that--for example, that the 
2010 ICAO Triannual Assembly, as also with the one before 
that--these are 3-year--every-3-year assemblies in Montreal--
the European Union was virtually isolated in taking the view 
that it had the right to impose the Emissions Trading Scheme on 
other countries' airlines. So a number of countries share our 
position that the EU is not correct in going ahead and doing 
this.
    Mr. Hultgren. I wonder if you could talk briefly about what 
happens from the proceeds from the EU trading scheme? Do they 
go to aviation? Where do the revenues go according to the 
scheme?
    Ms. Oettinger. The revenues from the scheme go into the 
treasury, the national treasuries of the individual member 
states that administer the scheme on behalf of the European 
Union. There is a provision in the directive that suggests that 
50 percent of the proceeds should go toward climate mitigation 
or toward environmental efforts, but there is nothing that 
requires that, and we--as Susan mentioned in her opening 
statement, we have heard no commitments of any governments to 
use the proceeds in that way.
    Mr. Hultgren. And nothing specifically goes to aviation?
    Ms. Oettinger. No.
    Mr. Hultgren. Switching gears a little bit, I wonder how it 
impacts us and the Government. Does the U.S. Government have 
any planes that would be subject to the EU's ETS scheme? And I 
wonder specifically would the FAA Administrator's plane be 
subject to the scheme?
    Ms. Oettinger. The answer is that we believe we have pretty 
much resolved that issue. It has, unfortunately and quite sort 
of surprisingly, taken us a while to work through that both at 
the FAA and the Department of Defense to ensure that the 
administering European States agree that FAA--the FAA fleet and 
the DOD fleet should not be subject to the ETS. And we have 
pretty much resolved that issue, although it has taken us quite 
a while to get there.
    Mr. Hultgren. Thank you very much. I appreciate the work 
that you are doing on this.
    I yield back.
    Mr. Petri. Thank you.
    Mr. Fleischmann, do you have any questions?
    Mr. Fleischmann. I am fine, thank you, Mr. Chairman.
    Mr. Petri. Well, we thank you very much for your testimony. 
We urge you to get on with the tasks so that this can be 
resolved in as efficient a manner and satisfactory a manner as 
possible. But clearly doing nothing is not an option at this 
point, given the prospect of European overreaching that we are 
confronted with.
    Thank you very much.
    Mr. Petri. The second panel consists of Ms. Nancy Young, 
vice president for environmental affairs of the Air Transport 
Association; and also Captain Lee Moak, who is president of the 
Air Line Pilots Association, International.
    We thank both of you for joining us today to offer your 
testimony on this legislation and the general subject that it 
deals with. And we will begin with Ms. Young.

      TESTIMONY OF HON. NANCY N. YOUNG, VICE PRESIDENT OF 
 ENVIRONMENTAL AFFAIRS, AIR TRANSPORT ASSOCIATION OF AMERICA, 
     INC. AND CAPTAIN LEE MOAK, PRESIDENT, AIR LINE PILOTS 
                   ASSOCIATION, INTERNATIONAL

    Ms. Young. Good morning, and thank you for the opportunity 
to testify on the unilateral and extraterritorial European 
Emissions Trading Scheme, a scheme that poses a threat to our 
Nation's airlines, economy and jobs, and also to advancing the 
right kind of measures to further address aviation greenhouse 
gas emissions.
    My name is Nancy Young, and I am the vice president of 
environmental affairs for the Air Transport Association of 
America, ATA, representing major passenger and cargo airlines 
of the United States.
    ATA opposition to the ETS is twofold. First, it violates 
international law, including the sovereignty of the United 
States. Second, it imposes an illegal, exorbitant and 
counterproductive tax on U.S. citizens, diverting U.S. dollars, 
and threatening thousands upon thousands of U.S. jobs.
    Even projecting from the unusually low carbon prices of 
today, the U.S. airlines will be required to pay into EU 
coffers over $3.1 billion between 2012 and 2020, an outlay that 
could support over 39,200 jobs. Now, consider that the costs 
would be several times higher if the cost of carbon in Europe 
returns to where it was just 2 years ago, and if, as expected, 
the EU makes it emissions caps even higher. Yet none of the 
monies collected by the Europeans are required to be used for 
environmental purposes.
    By contrast, the initiatives the U.S. airlines are taking 
are resulting in real environmental improvements. Our airlines 
have dramatically improved fuel and greenhouse gas emissions 
efficiency by investing billions of dollars in fuel-saving 
aircraft and engines, innovative technologies like winglets and 
advanced avionics. Accordingly, the U.S. airline industry 
improved its fuel efficiency by 110 percent between 1978 and 
2009, resulting in emissions savings equivalent to taking 19 
million cars off the road each of those years. That is why our 
industry represents just 2 percent of all U.S. greenhouse gas 
emissions, while driving over 5 percent of the Nation's GDP.
    And we are not stopping there. ATA and its members are part 
of a worldwide aviation coalition with an aggressive proposal 
for further carbon emissions reductions under the appropriate 
international body, the International Civil Aviation 
Organization, or ICAO. Significantly, in 2010, ICAO adopted 
much of the industry's framework. While more work is needed, 
EU's insistence on the unilateral scheme has been a roadblock.
    Although the ETS violates international law in many 
respects, perhaps the most egregious is its regulatory 
overreach into other nations, including the United States. U.S. 
airlines already are required by the scheme to monitor and 
report emissions for the entirety of each individual flight to, 
from and within the EU at exorbitant expense. But starting on 
January 1, 2012, the costs of complying multiply. At that stage 
our airlines will be required to acquire allowances to cover 
the emissions over the whole of their flights.
    Consider the example of an actual ATA member flight from 
San Francisco to London. Even before the aircraft begins to 
taxi, the EU emission rules apply. As a percentage of total 
emissions, 29 percent take place in U.S. airspace, 37 percent 
in Canadian airspace, 25 percent over the high seas. Less than 
9 percent of the emissions will take place in EU airspace. This 
extraterritorial assertion of jurisdiction violates the Chicago 
Convention and customary international law.
    The Europeans are also acting contrary to their commitments 
to work this issue through ICAO. Moreover, the levy aspect of 
the scheme violates provisions in the Chicago Convention and 
the U.S.-EU Bilateral Air Service Agreement that govern the 
conditions under which one country may impose taxes and charges 
on the airlines of another.
    The EU tries to argue that if the U.S. just would adopt 
equivalent measures, the EU will exempt U.S. airlines on one 
leg of a flight. That our Government should take orders from 
the EU on how to fashion U.S. law is an astonishing 
proposition. Moreover it is a recipe for chaos. With the EU 
unilaterally determining equivalence, the prospects for 
competitive distortions and discrimination are enormous.
    Although ATA has brought a legal action in European courts 
against the ETS, U.S. opposition to the scheme is essential. 
Our Government has the tools not only to call the EU on its 
actions, but to get them back to the table at ICAO. ATA 
commends the bipartisan leadership shown by Chairmen Mica and 
Petri and Ranking Members Rahall and Costello in introducing 
legislation opposing the EU ETS and urging the administration 
to take further steps in this regard. We appreciate the 
opportunity to work with the U.S. Government on this critical 
endeavor. Thank you.
    Mr. Petri. Thank you.
    Captain Moak.
    Mr. Moak. Thank you, Chairman Petri, Ranking Member 
Costello and other members of the committee, for the 
opportunity today to testify on this important subject. The Air 
Line Pilots Association represents 53,000 pilots flying for 39 
airlines in the U.S. and Canada.
    The Air Line Pilots Association wants to assure the long-
term viability of the U.S. aviation industry. Our aviation 
industry has been the leader in taking the steps to reduce 
carbon emissions. They have been leaders in the development of 
lighter-weight composite structures, leaders in the development 
of biofuel, leaders in the development and implementation of 
satellite-based navigation which enables more direct routing, 
thus shortening time aloft and decreasing fuel burn. Our 
aviation industry in the U.S. needs to be recognized and given 
credit for the advancements that aviation has made towards 
reducing greenhouse gases.
    The European Union, with their Emissions Trading Scheme, to 
be blunt, is a job killer. Commercial aviation, $1.3 trillion 
in economic activity, 5 percent of the U.S. GDP, employs 11 
million people. The ETS is an additional tax on our U.S. 
industry, nothing more. It is a tax. And it is a foreign tax at 
that, a foreign tax in an already overtaxed commercial aviation 
industry. Current taxes, $17 billion. Compare and contrast that 
to back in 1993 where it was $3.7 billion. A current $300 
domestic airfare has $63, 20 percent of it, in tax, 300 percent 
more than 1972. This is a tax that will ultimately cost good 
U.S. jobs.
    The European Union has acted unilaterally. This is stand-
alone taxation. They cap annual emissions per airline, then 
they allocate an emissions allowance. They have a penalty, a 
tax penalty, for exceeding allowances, which equates to 
billions of dollars over the next few years. Their scheme is at 
odds with the customary international law and agreements, and 
it will lead, if allowed to be enacted, to conflicting and 
redundant schemes by other countries.
    Our airline industry has made significant and meaningful 
emission improvements for decades. Fuel efficiency has improved 
110 percent between 1978 and 2008. That saved 2.7 billion 
metric tons of CO2. Between 2000 and 2008, greenhouse gas 
emissions and fuel burn total was reduced by 5.5 percent, while 
transporting 17 percent of the passengers and cargo.
    The airline industry is working to develop synthetic fuel 
sources, and a 6-month biofuel trial is ongoing. Our aircraft 
are more fuel-efficient. As was brought up earlier, the 787 is 
designed to use 20 percent less fuel than a comparably sized 
aircraft.
    Now, my members, your pilots here in the U.S., we have been 
doing our part, operational techniques that we use routinely. 
Single-engine taxi for ground operations. We participate, help 
develop and encourage technology-enhanced departure and arrival 
procedures. We fly optimum altitudes and speeds, and we 
participate in continuous descent arrival procedures to save 
fuel.
    The European Union's Emissions Trading Scheme is a bad idea 
and of questionable legality. And I would like to just be blunt 
in my summary of it. Basically this is an arbitrary voodoo tax 
scheme. That is what it is, and if allowed to be enacted, it 
will be another ticket expense that a passenger has to pay, 
making airline travel more expensive. Less people will fly, 
airlines will shrink, Americans will lose their jobs, 
communities large and small will lose their service. Basically 
this is a bad idea, period.
    Thanks. I am happy to take your questions, sir.
    Mr. Petri. Thank you.
    Thank you both. I guess it is a bad idea whose time we hope 
will never come.
    I wonder if you could, either of you or both of you, 
speculate a little bit if this scheme were actually to go into 
effect. People in a free society don't just sit like deer in 
the headlights. They change their behavior when the incentive 
is changed to maximize the situation that they find themselves 
in. And you would think that this could affect the flights 
going from, say, the west coast to Europe. It might affect the 
flights going directly to Europe. Maybe an airport in Morocco 
or something would develop, and people would fly there, and 
then as close as possible to European airspace.
    I don't know how much of a--how this tax is related in 
relation to the other expenses that airlines have, but you are 
always looking at trying to save money on fuel, trying to save 
money on 101 other ways, and even on peanuts for the passengers 
sometimes. So this probably won't be peanuts, this will be 
something pretty significant, and it could well affect the 
pattern of flights to and from Europe.
    Would either of you care to speculate on that and how you 
think it might unfold, or what the incentives--what incentives, 
how they would change?
    Ms. Young. Thank you, Mr. Chairman. Yes, you are correct. 
The EU ETS, by taking money away from our airlines, is going to 
affect our behavior. As has been noted by a number of 
Congressmen today and panelists, it will take money away from 
our ability to invest in fuel-saving measures.
    Two points. We actually already are covered by the EU ETS. 
Our airlines have spent thousands and thousands of dollars 
complying with emissions-monitoring requirements that are very 
Eurocentric to date. But the emissions trading obligation will 
multiply that exponentially.
    The observation you make that there is a potential to 
change routing around the world is one of the concerns that 
brings the U.S. airlines to the International Civil Aviation 
Organization, ICAO, to deal with this on an international level 
so there isn't this kind of jury-rigging of flying around the 
world. And as you know, in many cases it will be very 
difficult. I mean, if you want to go from Dulles over to 
Europe, you don't want to go somewhere in between and stop.
    So I am not sure how much of that will take place, but you 
could expect, particularly with countries like the Middle 
Eastern countries and others near Europe, you might see some 
stopovers from some of the far-reaching destinations. Again, we 
need to come back to an international approach that allows for 
seamless international aviation.
    Mr. Moak. I agree completely. This is a tax, and it will 
cause changes in behavior, changes in flight patterns. There 
will be, I believe, over the longer term hubs developed, places 
to go to avoid this tax. In the near term, which is important, 
though, this tax will cost jobs, and it will cause airlines to 
have less income to be able to purchase new, more fuel-
efficient airplanes.
    So it is a near-term problem, but it is also a long-term 
problem.
    Mr. Petri. Thank you.
    Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. Mr. Chairman, I 
think that both Captain Moak and Ms. Young, they both have 
touched on areas that I was going to ask them about. And 
Captain Moak's testimony talked about the EU ETS as a job 
killer, and I think you were pretty clear about that, and a few 
other issues that I was going to touch on you have already 
addressed.
    So let me just say, as I said in my opening statement, that 
climate change is a global problem, and we need to find a 
global solution to that problem. And as a result, the EU needs 
to work with the U.S. and other countries for a global 
solution.
    I would hope that the administration--our first panel will 
take back to the administration that this subcommittee and 
members of this subcommittee want the administration to take 
action now--not later, but now--in order to make our case that 
this is a bad idea, and to make certain that it doesn't happen, 
that it is not implemented. And last, of course, is that we 
intend to, as I said earlier, to pass our legislation to make 
it clear to our friends in Europe that we are not going to 
allow our airlines in the United States to participate in this 
scheme.
    So I look forward to working with you Mr. Chairman, 
Chairman Mica and Mr. Rahall, to pass the legislation through 
our committee and get it to the floor of the House as quickly 
as possible. And again, I thank you for calling this hearing, 
and I thank our witnesses for being here today.
    Mr. Petri. And with that, this hearing is concluded.
    [Whereupon, at 11:02 a.m., the subcommittee was adjourned.]

</pre></body></html>
